SARAH M. HARRIS
(202) 434-5599
sharris@wc.com

February 12, 2020
Via Filing and Messenger
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Manfredo M. Salinas v. U.S. Railroad Retirement Board, No. 19-199

Dear Mr. Harris:
I represent the petitioner in the above-captioned matter. I write to request
an extension of time to file the briefs on the merits as follows:
Brief of petitioner:
Brief of respondent:
Reply brief:

April 1, 2020
June 8, 2020
July 8, 2020

Both parties have agreed to the foregoing schedule, which would enable this case to be
heard during the Court’s October 2020 sitting. The parties believe that the requested
extension is appropriate given counsels’ other commitments, including briefing in other
cases in this Court.
Should you need any additional information from me, please do not hesitate
to let me know.

Yours sincerely,
/s/
Sarah M. Harris
cc: Counsel for Respondent

